JOSH STEIN
ATTORNEY GENERAL

MATT SAWCHAK
SOLICITOR GENERAL
(919) 716-6429
msawchak@ncdoj.gov

September 25, 2019
By USPS Express Mail
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Capital Associated Industries, Inc. v. Stein, et al., No. 19-281

Dear Mr. Harris:
I represent Attorney General Stein, District Attorney Nancy L. Freeman, and
District Attorney Avery Crump1 in the above case. Mr. Stein, Ms. Freeman, and
Ms. Crump do not intend to file a response to the petition for certiorari unless one is
requested by the Court.
Sincerely,
/s/ Matthew W. Sawchak
Matthew W. Sawchak
Solicitor General
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
(919) 716-6400
msawchak@ncdoj.gov
cc:

Mr. Reid L. Phillips, Esq.
(by mail)

Ms. Crump has replaced J. Douglas Henderson as the district attorney for
her prosecutorial district. By rule, she is substituted for Mr. Henderson as a party
in this case. See S. Ct. Rule 35.3.
1

POST OFFICE BOX 629, RALEIGH, NC 27602-0629

